TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Federal Payment Levy Program Needs to
                  Reduce Taxpayer Burden and Maximize
                                Revenue



                                        February 20, 2009

                              Reference Number: 2009-40-031




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               February 20, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Federal Payment Levy Program Needs to
                               Reduce Taxpayer Burden and Maximize Revenue (Audit # 200840005)

 This report presents the results of our review to determine the effectiveness of the Federal
 Payment Levy1 Program (FPLP) in collecting delinquent taxes and whether the Program
 adequately protects taxpayers’ rights. This report was conducted as part of the Treasury
 Inspector General for Tax Administration Office of Audit Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) is authorized to continually levy against certain types of
 Federal Government payments issued to taxpayers and contractors with outstanding tax debts.2
 The IRS uses the FPLP to impose systemic levies on these types of payments. However, in some
 cases, these systemic levies have caused hardships for taxpayers. In addition, some Federal
 Government payments that should have been levied on were not identified for levy, and some
 levy fees paid by the IRS were excessive. These conditions increase taxpayer burden, reduce the
 amount of tax revenue collected, and increase operating costs for the IRS.

 Synopsis
 Congress has expressed concern that some Federal Government contractors, vendors, and
 employees who received Federal Government payments were delinquent in meeting their tax


 1
  See Appendix IV for a glossary of terms.
 2
  Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
 5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                          The Federal Payment Levy Program Needs to Reduce
                                Taxpayer Burden and Maximize Revenue



obligations. Accordingly, Congress amended the tax code3 and authorized the IRS to
continuously levy against specified Federal Government payments through the FPLP. The FPLP
was created to systemically levy against these payments.
In Fiscal Year 2004, IRS collections on delinquent taxes through the FPLP totaled
$114 million. In Fiscal Year 2007, the total collections through the FPLP rose to $345 million.
The increase in collections can be directly attributed to the efforts of the FPLP in accessing
additional Federal Government payment streams that were previously not available for levy.
However, even with this growth, IRS management still could do more to reduce the cost of
collection and maximize delinquent tax collections through the FPLP while preventing hardships
on low-income taxpayers.
We identified a number of areas in the FPLP that need to be improved. Some low-income Social
Security beneficiaries are experiencing hardship due to the FPLP. Initially, the IRS had an
income threshold in place. If a taxpayer’s overall income amount as reported on the most
recently filed tax return was less than this threshold, the taxpayer was excluded from the
Program. However, starting in July 2005, the income threshold began to be phased out. It was
first reduced by one-half; 6 months later, it was completely removed. Since then, the Taxpayer
Advocate Service has experienced a large increase in the number of Social Security beneficiaries
claiming hardship due to the issuance of FPLP automated levies. Although the previous income
threshold criteria were flawed in some respects, some method of screening is needed.
In addition, the FPLP did not identify for levy Federal Government payments made to
163 taxpayers from 6 Federal Government entities with taxes due. The IRS did not take
adequate steps to ensure that all available Federal Government payment sources were included in
the FPLP, such as researching available data to isolate unidentified payment sources. As a result,
available levy sources went unidentified.
Finally, levy fees for low-dollar cases are excessive. The IRS paid per-transaction fees
averaging 51 percent to collect certain low-dollar levy payments. We determined that the
Department of the Treasury Financial Management Service (FMS) provided 1,986 levy
payments that fell below the debt and levy threshold for 923 taxpayer accounts. For nearly
three-fourths (1,468) of these levies, the IRS was charged a levy processing fee of $8.25 to
$10.20.4 Overall, for these 1,468 low-dollar levies, the IRS paid $12,809 (51 percent) to collect
$25,113 in delinquent taxes owed. Under the IRS’ Interagency Agreement with the FMS, the
IRS should not be reimbursing the FMS for low-dollar levies under the debt threshold unless
those levies are collecting a tax debt balance that, at one time, was larger.

3
 Taxpayer Relief Act of 1997.
4
 The IRS is not charged a levy fee if the amount of the levy payment is less than the fee amount. Therefore, the
other 518 cases (1,986 – 1,468) involved levy payments that were less than the fee amounts, and the IRS was not
charged fees for these cases. The FMS fee charged the IRS for levying Federal Government payments in Fiscal
Year 2007 was $10.20. In Fiscal Year 2008, the fee was set at $12.65.
                                                                                                                   2
                      The Federal Payment Levy Program Needs to Reduce
                            Taxpayer Burden and Maximize Revenue




Recommendations
We recommended that the Commissioner, Wage and Investment Division, 1) establish specific
criteria to identify and exclude from the FPLP those Social Security beneficiaries for whom a
levy would create a hardship situation, 2) implement a process to periodically match Federal
Government payment documents with available levy source lists, and 3) ensure that the IRS does
not pay the per-transaction levy fee for those levies not covered by the FPLP Interagency
Agreement and ensure that the cost of collection on a per-transaction basis is reasonable and
does not exceed the cost of alternative IRS collection methods.

Response
IRS management partially agreed with two of our three recommendations and disagreed with one
recommendation. IRS management agreed with the principle of the first recommendation, but
does not know if the model currently under development to screen low-income taxpayers for
potential hardship is feasible to implement; therefore, management did not agree with the
recommendation as written.
IRS management disagreed with the recommendation to match taxpayers not previously
identified against information return documents received by the IRS but continues to work with
the FMS to implement additional payment streams into the FPLP. Management stated that all
six of the payment sources identified were from the Department of Defense or the Defense
Financial Accounting Services.
IRS management is aware that some of the Non-Department of the Treasury disbursing offices
are sending payments less than the payment threshold. The FMS is not the disbursing agent for
these payments. While they do not have authority to force other agencies to make programming
changes, they will meet with the FMS and the other agencies by June 15, 2009, to encourage
them to adjust their payment thresholds so they can exclude payments below the payment
threshold amount. The IRS is unable to provide an implementation date for the non-Department
of the Treasury disbursing offices to complete this programming but it will diligently work with
these agencies to reach a resolution to this issue. Management’s complete response to the draft
report is included as Appendix V.

Office of Audit Comment
We are concerned with IRS management’s approach to putting a solution in place to prevent as
many hardships as possible for low-income taxpayers using a filter. It has been 7 years since the
IRS first put in place a filter to prevent hardships. There has been more than enough time to
refine and test the criteria. Delays come at the expense of low-income taxpayers who experience


                                                                                                 3
                      The Federal Payment Levy Program Needs to Reduce
                            Taxpayer Burden and Maximize Revenue



hardship due to levies on their Social Security payments. The IRS has an operational
responsibility to reduce taxpayer burden and protect taxpayer rights.
The IRS provided additional information in its response that it did not provide upon our request
during the audit. Upon review of the additional supporting documentation, we agree that two of
the six exceptions were supported. However, for the other four exceptions, two were identified
for levy of salaries but did not include the contractor/vendor payments, and the documentation
for the remaining two was not sufficient to indicate that the payment streams should not be
levied by the FPLP. Therefore, our recommendation remains valid that a process is needed to
identify Federal Government payments for taxpayers who owe tax to the IRS. Finally, we accept
management’s partial agreement and planned actions to reach a resolution to the cost of
collecting balance-due accounts.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                               4
                              The Federal Payment Levy Program Needs to Reduce
                                    Taxpayer Burden and Maximize Revenue




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Some Low-Income Social Security Beneficiaries Are Experiencing
          Hardship Due to the Federal Payment Levy Program ..................................Page 3
                    Recommendation 1:..........................................................Page 5

          Some Federal Government Payment Sources Were Not Identified for
          Levy Through the Federal Payment Levy Program......................................Page 6
                    Recommendation 2:..........................................................Page 6

          Levy Fees for Low-Dollar Cases Are Excessive ..........................................Page 7
                    Recommendation 3:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Glossary of Terms................................................................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 19
       The Federal Payment Levy Program Needs to Reduce
             Taxpayer Burden and Maximize Revenue




                 Abbreviations

FPLP       Federal Payment Levy Program
FMS        Financial Management Service
FY         Fiscal Year
GAO        Government Accountability Office
IRS        Internal Revenue Service
                          The Federal Payment Levy Program Needs to Reduce
                                Taxpayer Burden and Maximize Revenue




                                             Background

Congress has expressed concern that some Federal Government contractors, vendors, and
employees who received Federal Government payments were delinquent in meeting their tax
obligations. Accordingly, Congress amended the tax code1 and authorized the Internal Revenue
Service (IRS) to establish a continuous levy2 program on specified Federal Government
payments. This change in the law allowed the IRS to levy
on (take) up to 15 percent of individual and recurring             The Federal Payment Levy
specified payments. The American Jobs Creation Act of           Program was created to address
20043 further amended the IRS’ continuous levy authority         Congressional concerns about
by providing for a 100 percent levy on specified Federal           delinquent taxpayers who
Government contractor/vendor payments. These continuous          receive payments from Federal
                                                                      Government entities.
levies are separate from the internal IRS process of applying
taxpayer refunds to outstanding tax debts.
In response to changes in the law, the IRS created the Federal Payment Levy Program (FPLP)
and coordinated with the Department of the Treasury Financial Management Service (FMS) to
levy against specified Federal Government payments made to taxpayers with outstanding tax
debts. The FMS’ mission is to act as the disbursing agent for many of the Federal Government
payments. In addition, it acts as a centralized debt collection service for Federal Government
agencies. For example, it collects delinquent student loans for the Department of Education and
delinquent child support payments for the Office of Child Support Enforcement. Through the
FMS, the IRS collections on delinquent taxes with the FPLP have increased from $114 million in
Fiscal Year (FY) 2004 to $345 million in FY 2007.
The IRS entered into an Interagency Agreement with the FMS to issue automated levies under
the FPLP. Four steps are taken to identify the available Federal Government payments and to
issue automated levies against those payments.
    •   Case and Module Selection – Each week, the IRS transmits to the FMS a file containing a
        list of taxpayers with outstanding tax debts.
    •   Match and Notice – From this file, the FMS matches the taxpayer information against the
        same information in its Federal Government payment file. The FMS then transmits a
        weekly file to the IRS listing the taxpayers who matched. The IRS sends each of those


1
  Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
2
  See Appendix IV for a glossary of terms.
3
  Pub. L. No. 108-357, 118 Stat. 1418.
                                                                                                            Page 1
                           The Federal Payment Levy Program Needs to Reduce
                                 Taxpayer Burden and Maximize Revenue



         taxpayers a notice, which provides the taxpayer with an opportunity to comply by paying
         the delinquent tax debt in full or by setting up a tax payment agreement.4
    •    Levy – Once the notice process is complete and the taxpayer has not appealed or resolved
         the case within the appropriate time period, the IRS will direct the FMS to continuously
         levy against the taxpayer’s Federal Government payments until the levy is released.
    •    Levy Payment – The FMS takes the appropriate amount from the Federal Government
         payments and transmits those withholdings to the IRS. At the same time, the FMS sends
         the remaining part of the Federal Government payment to the taxpayer, along with a
         notice informing the taxpayers that the payment was subjected to an IRS levy. Once the
         IRS receives the withheld amount from the FMS, a payment is applied to the taxpayer’s
         outstanding tax debt.
The IRS and FMS operate the FPLP under an Interagency Agreement that was established to
identify the responsibilities and estimated transaction fees to be charged for each levy issued.
The current agreement began in FY 2007 and includes options for services through FY 2011.
The per-transaction fee in FY 2007 was $10.20. Based on the Interagency Agreement, the per-
transaction fee is estimated to rise to $19.75 in FY 2011. The projected cost for the services
provided by the FMS over the life of the Agreement (through FY 2011) is estimated at $159
million. While most financial institutions and other Government agencies pass on the cost of a
levy to the individual with the outstanding balance, the IRS is prohibited by law to pass on the
cost and pays the processing costs of levies from its enforcement funds.
This review was performed at the IRS National Headquarters office of the Chief Financial
Officer in Washington, D.C., the Wage and Investment Division Headquarters in
Atlanta, Georgia, and the Department of the Treasury FMS National Headquarters in
Washington, D.C., during the period August 2007 through September 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
 The IRS issues the final notice, Notice of Intent to Levy and Notice of Your Right to a Hearing (Form CP90 or
CP297). If the taxpayer is a Social Security recipient and does not respond to the final notice within a specified time
period, the IRS issues a Final Notice Before Levy on Social Security Benefits (Form CP91 or CP298).
                                                                                                              Page 2
                       The Federal Payment Levy Program Needs to Reduce
                             Taxpayer Burden and Maximize Revenue




                                 Results of Review

Some Low-Income Social Security Beneficiaries Are Experiencing
Hardship Due to the Federal Payment Levy Program
When the FPLP began assessing levies against Social Security benefits in February 2002,
low-income Social Security beneficiaries were excluded from the Program because the IRS had
an established income threshold. If a taxpayer’s overall income amount as reported on the most
recently filed tax return was less than this threshold, the taxpayer was excluded from the FPLP.
However, starting in July 2005, the income threshold began to be phased out. The threshold was
first reduced by one-half; 6 months later, it was completely removed.
The IRS’ change in the FPLP income threshold stemmed from a Government Accountability
Office (GAO) review of the Program soon after Social Security benefits began to be levied
against. In an FY 2003 report,5 the GAO concluded that the IRS used inaccurate income criteria
when determining “ability to pay” for taxpayers receiving Social Security benefits. In the
GAO’s opinion, the income threshold was not a good indicator of a taxpayer’s actual ability to
pay delinquent taxes. The IRS responded that it would work with the National Taxpayer
Advocate and program administrators to assess the deficiencies in the current process and
develop a solution. However, the IRS’ final solution was to eliminate the income threshold
entirely, which exposed a large number of Social Security beneficiaries to FPLP levies. As
recommended by the GAO, after eliminating the income threshold, the IRS continued to rely
only on a dual notice process that informs the Social Security beneficiaries who are burdened by
the levy of how they might claim a financial hardship. Other than the dual notice process, the
IRS has not implemented any procedures to minimize the volume of Social Security
beneficiaries who encounter a financial hardship because of the FPLP, and the number of
hardship cases has continued to increase.
The Taxpayer Advocate Service has experienced a large increase in the number of Social
Security beneficiaries claiming hardship and considers the FPLP automated levy process to be
one of the most serious problems facing taxpayers. While in FY 2007 only about 8.5 percent of
the FPLP levies were against Social Security beneficiaries, during FYs 2004 through 2007, more
than 80 percent of all the Federal Government payments levied through FPLP were imposed
against monthly Social Security benefit payments (these Social Security levies accounted for
more than 60 percent of the total revenue collected by the FPLP during the same period). The


5
 TAX ADMINISTRATION: Federal Payment Levy Program Measures, Performance, and Equity Can Be Improved
(GAO-03-356, dated March 2003).
                                                                                            Page 3
                            The Federal Payment Levy Program Needs to Reduce
                                  Taxpayer Burden and Maximize Revenue



National Taxpayer Advocate6 has expressed concern that the automatic levies might cause
economic hardship for a large number of low-income Social Security beneficiaries and other
at-risk taxpayers. With no income threshold in place, the IRS has no effective mechanism for
excluding low-income taxpayers from the FPLP continuous levy.
We reviewed a randomly selected statistical sample of 57 FY 2006 Taxpayer Advocate Service
hardship cases and determined that:7
      •   44 (77 percent) subsequently had the FPLP levy released.
      •   10 (18 percent) were closed with no action due to the taxpayer’s non-responsiveness or
          the taxpayer’s withdrawal of the request.
      •   3 (5 percent) were determined to be properly levied on as there was no hardship.
Of the 44 FPLP cases for which the levies were released, 30 were placed in “currently not
collectible” status after being reviewed by the Taxpayer Advocate Service. This means that at
the time of our review, the taxpayers were considered unable to pay any amount based on his or
her financial situation. To classify a taxpayer’s account as currently not collectible, the IRS must
first review the taxpayer’s situation, which includes requesting financial information8 and the
filing of any delinquent returns. A taxpayer whose account is in currently not collectible status is
informed that changes in his or her financial condition could result in future enforcement actions
being taken. IRS management stated that if a case was placed in currently not collectible status
after a Taxpayer Advocate Service review, a hardship existed at the time of levy.
In FY 2007, IRS management and the Taxpayer Advocate Service started a joint research project
(the Automated Levy Issuance Research Project) to identify criteria that could exclude from the
FPLP those Social Security beneficiaries who might experience hardships from the Program’s
levies. This research project’s June 2008 report stated that a workable model to exclude hardship
cases could not be created because of insufficient or incomplete data. The report conclusion
stated, “The IRS continues to work towards meeting the goal of developing a filter that will
systemically prevent FPLP taxpayers from experiencing a financial hardship that might result
from the levy of their Social Security benefits.” However, the IRS has not specified the action it
plans to take or the time period for action.
The overall intent of the original GAO recommendations was for the IRS to implement a more
effective process to ensure the equitable treatment of taxpayers. While the IRS did take actions


6
  National Taxpayer Advocate 2006 Annual Report to Congress, January 2007, and National Taxpayer Advocate
2005 Annual Report to Congress, January 2006.
7
  Of the 57 cases reviewed, 55 involved levies on Social Security benefits and 2 involved levies on Federal
Government wages.
8
  Some taxpayers are required to complete the Collection Information Statement, which includes employment and
financial statement information (e.g., bank accounts, cash, life insurance, vehicles, real property, and other assets).

                                                                                                                 Page 4
                       The Federal Payment Levy Program Needs to Reduce
                             Taxpayer Burden and Maximize Revenue



to address the report’s recommendations, the fact that the number of FPLP hardship cases
coming to the Taxpayer Advocate Service continues to increase9 indicates that these actions need
to be reexamined. Although the previous income threshold criteria were flawed in some
respects, some method of screening is needed.
Until further actions are taken, the IRS will continue to include Social Security beneficiaries and
others who might face hardships in the FPLP. Moreover, the results presented above represent
only those taxpayers who formally requested assistance from the Taxpayer Advocate Service.
There might be other taxpayers who are also affected but did not go through the formal process
of claiming an economic hardship.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should develop a
viable method for screening low-income taxpayers for potential hardship and then establish
specific criteria to identify and exclude from the FPLP those Social Security beneficiaries and
other low-income taxpayers for whom a levy would create a hardship situation.
       Management’s Response: IRS management agreed with the principle, but does not
       know if the model currently under development will be feasible to implement; therefore,
       management did not agree with the recommendation as written. As reported, the joint
       research project concluded that the data available to them does not lend itself to provide a
       model that would identify Social Security Administration beneficiaries at risk for
       financial hardship with any degree of confidence. The Taxpayer Advocate is considering
       and evaluating other options, including a low-income filter based on allowable living
       expenses and/or poverty level analysis. However, the reliability of any such model must
       be established before it can be implemented.
       Office of Audit Comment: We are concerned with management’s approach on this
       issue. It has been 7 years since the IRS first put in place a filter to prevent hardships.
       There has been more than enough time to refine and test the criteria. Delays come at the
       expense of low-income taxpayers who experience hardship due to levies on their Social
       Security payments. The IRS has an operational responsibility to reduce taxpayer burden
       and protect taxpayer rights.




9
 TAXPAYER ADVOCATE SERVICE: Caseload Has Grown and Taxpayers Report Being Satisfied, but Additional
Measures of Efficiency and Effectiveness Are Needed (GAO-07-156, February 2007).
                                                                                             Page 5
                       The Federal Payment Levy Program Needs to Reduce
                             Taxpayer Burden and Maximize Revenue



Some Federal Government Payment Sources Were Not Identified for
Levy Through the Federal Payment Levy Program
In response to a February 2004 GAO report10 and at Congress’ request, the IRS, FMS, and other
Federal Government agencies began working together and formed the Federal Contractor Tax
Compliance Task Force, with the intent to improve tax compliance by Federal Government
contractors. The GAO report concluded that thousands of Department of Defense contractors
continued to receive Federal Government payments while still owing millions in unpaid taxes.
Since the Federal Contractor Tax Compliance Task Force was formed, progress has been made,
including:
     •   Adding payments from a variety of Federal disbursement entities that were previously
         inaccessible through the FPLP.
     •   Increasing the frequency with which the FMS processes payments from participating
         agencies, to capture more payments under the FPLP.
     •   Identifying new ways to prevent Federal Government contract awards to
         taxpayers/contractors who abuse the tax system.
However, despite the progress made by the Federal Contractor Tax Compliance Task Force, we
identified six Federal Government entities whose payments were not being matched for levy by
the FPLP. The six entities were Defense Finance and Accounting Service or other Department
of Defense offices whose contractor payments were not included in the FPLP. At the time of our
review, there were 163 taxpayers who had balance-due accounts that were not matched for levy
by the FPLP even though the IRS had information return documents (e.g., Form 1099 series)
readily available for review which showed the taxpayers received significant Federal
Government payments from the 6 entities. The IRS should have been using this internal data to
ensure that all Federal Government payments for delinquent taxpayers were being accessed by
the FPLP. If not, the IRS should have taken adequate steps to ensure that the available Federal
Government payment sources were either included in the FPLP or otherwise issued levies using
existing collection methods. As a result, available levy sources might have gone unidentified.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should implement
a process to periodically match taxpayers who were not previously identified as receiving
Federal Government payments by the FPLP against information return documents received by



10
  FINANCIAL MANAGEMENT: Some DOD Contractors Abuse the Federal Tax System with Little Consequence
(GAO-04-95, dated February 2004). DOD = Department of Defense.
                                                                                            Page 6
                       The Federal Payment Levy Program Needs to Reduce
                             Taxpayer Burden and Maximize Revenue



the IRS. Once identified, the IRS should provide the information on unmatched sources to the
FMS for collection via levy.
       Management’s Response: IRS management disagreed with this recommendation
       and continues to work with the FMS to implement additional payment streams into the
       FPLP. All six of the payment sources identified were from the Department of Defense or
       the Defense Financial Accounting Services. The IRS made an informed decision to
       exclude two of these payment streams from the FPLP and two others are already included
       in the FPLP. The remaining two include Non-Appropriated Funds payment streams that
       are not disbursed through the Defense Financial Accounting Service, and thus not
       currently subject to the Treasury Offset Program used by the FMS to collect delinquent
       taxes from Federal payments under the FPLP. A Miscellaneous Income
       (Form 1099-MISC) is used for income reporting, and the payment information reported
       does not always mean that payment can be levied through the FPLP or that the paying
       agency should be added to the Program. The Defense Financial Accounting Service
       explained the Form 1099-MISC forms were used to report one-time payments to
       beneficiaries of deceased employees as well as other payments that are not vendor
       payments. The payments made by these entities were not contractor payments and were
       in fact payments to active and retired military which the IRS made a policy decision not
       to process through the FPLP. For a few small Federal payment sources, such as the two
       Non-Appropriated Fund payment streams identified, the programming to add them into
       the Treasury Offset Program and the FPLP might be cost prohibitive. However, the IRS
       will continue to work with the FMS, Congress, and large disbursing agencies to ensure
       that the majority of Federal payments are included in the FPLP.
       Office of Audit Comment: The IRS provided additional information in its response
       that it did not provide upon our request during the audit. Upon review of the additional
       supporting documentation, we agree that two of the six exceptions were supported.
       However, for the other four exceptions, two were identified for levy of salaries but did
       not include the contractor/vendor payments, and the documentation for the remaining two
       was not sufficient to indicate that the payment streams should not be levied by the FPLP.
       Therefore, our recommendation remains valid that a process is needed to identify Federal
       Government payments for taxpayers who owe tax to the IRS.

Levy Fees for Low-Dollar Cases Are Excessive
The FPLP generally incurs a lower collection cost than that incurred by the regular IRS
collection process. The overall cost of all in-house IRS collections is estimated to be 14 percent,
while the FPLP cost is 4 percent to 6 percent. Nonetheless, the IRS could make the FPLP more
efficient and reduce the cost for some cases.



                                                                                            Page 7
                          The Federal Payment Levy Program Needs to Reduce
                                Taxpayer Burden and Maximize Revenue



The FPLP Interagency Agreement between the IRS and the FMS establishes the roles and
responsibilities for both agencies with regard to the automated, continuous tax levy of the
specified Federal Government payments. In addition, the functional requirements document
identifies and defines the functional, data, and technical requirements for the FPLP. To
implement the requirements, the FMS applies two criteria when levying on Federal Government
payments:
     •   A debt threshold determines the amount that the FMS can collect. If the tax debt is less
         than the debt threshold, the FMS does not impose a levy unless the levy would be the
         final payment for a once larger tax debt amount. The debt threshold limit is an FMS
         criterion, and it has been the standard for all agencies.
     •   A levy threshold determines the base Federal Government payment amount needed
         before the FMS should impose a levy. Because the IRS can generally collect only
         15 percent of a Federal Government payment,11 the Federal payment amount should be at
         least the IRS’ levy threshold.
The IRS cost for collections made through the FPLP is determined as the percentage of the total
fees paid for all amounts collected. However, if the population of FPLP cases is examined on a
per-transaction basis, in some instances the IRS is incurring debt collection costs substantially
higher than those that would have been incurred by its regular collection process. We
determined that the IRS was receiving money on low-dollar FPLP levies that were not supposed
to take place and was paying excessive per-transaction fees for these levies.
We determined that the FMS provided 1,986 levy payments that fell below the debt and levy
threshold for 923 taxpayer accounts. For nearly three-fourths (1,468) of these levies, the IRS
was charged a levy processing fee of $8.25 to $10.20.12 Overall, for these 1,468 low-dollar
levies, the IRS paid $12,809 (51 percent) to collect $25,113 in delinquent taxes owed.
Both FMS and IRS management stated that they were aware of these low-dollar levies. The
levies were being processed through non-Department of the Treasury disbursing offices.13
According to FMS management, these disbursing offices do not have appropriate threshold
filters to restrict levies to Federal Government payments that meet the IRS’ levy threshold.
Therefore, levies below the debt and levy thresholds continue to occur. Although IRS
management was aware of these low-dollar collections (which were mainly levies on salary
payments), the IRS has taken no action to stop payment of the fee to the FMS in accordance with
the Interagency Agreement.

11
   Under the American Jobs Creation Act of 2004, contractor payments can be levied at 100 percent.
12
   The IRS is not charged a levy fee if the levy payment is less than the fee amount. Therefore, the other
518 cases (1,986 – 1,468) involved levy payments that were less than the fee amounts, and the IRS was not charged
fees for these cases. The FMS fee charged the IRS for levying Federal Government payments in FY 2007 was
$10.20. In FY 2008, the fee was set at $12.65.
13
   Payments made by non-Department of the Treasury disbursement offices are not processed by the FMS.
                                                                                                          Page 8
                         The Federal Payment Levy Program Needs to Reduce
                               Taxpayer Burden and Maximize Revenue



Also, the IRS has not taken any action to evaluate the suitability of the debt threshold for its
program. In FY 2007, the levy fee charged by the FMS was set at $10.20 per transaction.
Because the fee is fixed per transaction, smaller levy payments have larger fee percentage costs.
For example, a levy payment of $25 results in a fee percentage cost of 41 percent ($10.20/$25).
However, a levy payment of $375 results in a fee percentage cost of only 3 percent
($10.20/$375).14
If the IRS revised the FPLP debt threshold criteria so that the fee percentage cost is similar to the
average cost cited for IRS in-house collections (14 percent), the minimum levy payment for
FY 2008 should be about $90.15 This would increase the IRS’ levy threshold payment amount.
We found that nearly 10 percent, or 163,593, of the levy payments made to the IRS in Calendar
Year 2006 cost the IRS more than 14 percent. For these levy payments, the IRS paid $1,477,958
(19 percent) to collect $7,615,657 in taxes owed. The small size of these individual levy
payments is not indicative of the size of the respective balances due. In many cases, especially
for large balances due, other collection methods could be more effective.
Because the levy fee charged by the FMS increases annually, the fee percentage cost on a
per-transaction basis will also rise. If the fee projections in the Interagency Agreement are
realized, in FY 2011, the fee for each Federal Government payment levied will be $19.75. If the
debt threshold is not revised, the per-transaction levy cost on the base Federal Government
payment amount for the IRS’ levy threshold will rise to 79 percent. IRS management needs to
regularly evaluate the FPLP fees being incurred to collect balance-due accounts to ensure that
those fees are reasonable and that the FPLP levy is the best collection approach. The IRS and
FMS established the debt threshold for FPLP levies and agreed not to levy on Federal
Government payments of less than the IRS levy threshold. However, neither agency has
considered making adjustments to ensure that the costs of collection are efficient.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should ensure that
the IRS, in accordance with the Interagency Agreement, does not pay the per-transaction levy fee
for those levies that fall below the established debt and levy thresholds. In addition, the
Commissioner should work with the FMS and other relevant agencies to eliminate these
low-dollar levy payments and ensure that the cost of collection, on a per-transaction basis, is
reasonable and does not exceed the cost of alternative IRS collection methods.
        Management’s Response: IRS management partially agreed with this
        recommendation. They are aware that some of the non-Department of the Treasury

14
   The associated Federal Government payment that would result in a $375 levy payment is $2,500
($2,500*15 percent = $375). The FY 2007 FMS fee was $10.20 ($10.20/$375 = 2.7 percent).
15
   The associated Federal Government payment that would result in a $90 minimum levy payment would be
$600 ($600*15 percent = $90). The FY 2008 FMS fee was $12.65 ($12.65/$90 = 14.1 percent).
                                                                                                        Page 9
              The Federal Payment Levy Program Needs to Reduce
                    Taxpayer Burden and Maximize Revenue



disbursing offices are sending payments less than the payment threshold. The FMS is not
the disbursing agent for these payments. While they do not have authority to force other
agencies to make programming changes, they will meet with the FMS and the other
agencies by June 15, 2009, to encourage them to adjust their payment thresholds so they
can exclude payments below that amount. The IRS is unable to provide an
implementation date for the non-Department of the Treasury disbursing offices to
complete this programming but it will diligently work with these agencies to reach a
resolution to this issue.
Office of Audit Comment: We accept management’s partial agreement and planned
actions to reach a resolution to the cost of collecting on balance-due accounts.




                                                                                Page 10
                             The Federal Payment Levy Program Needs to Reduce
                                   Taxpayer Burden and Maximize Revenue



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the FPLP1 in collecting
delinquent taxes and whether the Program adequately protects taxpayers’ rights. To accomplish
the objective, we:
I.         Determined whether Wage and Investment Division management provided oversight of
           the IRS/FMS Interagency Agreement for the FPLP fees charged when automated levies
           are issued. We evaluated efforts by the IRS and the FMS to collect the
           per-transaction fee associated with processing automated levies directly from the
           taxpayers with outstanding tax debts.
           A. Reviewed the IRS and FMS FY 2008 Budget In Brief documents to identify
              proposals for passing on the costs of issuing automated levies to the taxpayers with
              outstanding tax debts.
           B. Reviewed the FPLP Interagency Agreement and modifications to the Agreement to
              determine whether the IRS and the FMS complied with the provisions in the
              Agreement. We reviewed controls established to ensure that the correct fees were
              paid for the automated levies that were processed.
           C. Analyzed the IRS’ Calendar Year 2006 automated levy payment file to determine
              whether the IRS paid for only those automated levies that met the conditions
              identified in the FPLP functional requirements document.
II.        Determined whether the Wage and Investment Division Compliance function identified
           and pursued new available Federal Government payment levy sources for the FPLP. We
           also determined whether the FPLP process was the best collection method and taxpayers
           were appropriately notified.
           A. Reviewed the process the Filing and Payment Compliance function follows for
              including delinquent taxpayer accounts in the FPLP and collecting taxes.
               For Calendar Year 2006, used IRS Information Returns Master File data and
               identified 649 Federal Government agencies that filed information returns reporting
               payments to taxpayers. To validate the data, we selected 25 records and traced the




1
    See Appendix IV for a glossary of terms.
                                                                                             Page 11
                             The Federal Payment Levy Program Needs to Reduce
                                   Taxpayer Burden and Maximize Revenue



                data for each to the Integrated Data Retrieval System2 to ensure the accuracy of the
                data contained in the extracts.
                We first accessed the Integrated Data Retrieval System to determine whether the
                names associated with the 649 payer Employer Identification Numbers were Federal
                Government agencies. We also used the Integrated Data Retrieval System to
                determine whether there were appropriate payment documents reported to the payees
                receiving payments from the 649 Federal Government agencies.
                We compared the documents identified for the primary and secondary Taxpayer
                Identification Numbers associated with the FPLP tax accounts to identify a
                population of FPLP taxpayers who had received Federal payments from at least 1 of
                the 649 Federal Government agencies. We eliminated those taxpayers who were
                levied against through the FPLP and identified the Federal Government agencies
                associated with the payments that appeared not to be matched. Overall, we examined
                documentation obtained from the FMS, the Defense Finance and Accounting Service,
                and the IRS Information Returns Master File and Integrated Data Retrieval System to
                determine the number of Federal Government contractors selected for levy via the
                FPLP during Calendar Year 2006.
                Using IRS Information Returns Master File data, we identified a total of 649 Federal
                Government entities that reported 77,523,058 Federal payments to 305,231 taxpayers
                during Calendar Year 2006. These taxpayers included contractors, Federal
                Government retirees, and Federal employees. We then determined how many of the
                information return documents were from entities for which FPLP levies were already
                being made and eliminated those entities from our analysis. There were 78 entities
                remaining whose payments were not being levied against, and they made payments to
                133,575 taxpayers.
                We then performed additional analysis using FMS data to determine whether the
                FMS had access to the payments from the 78 entities. We were able to eliminate all
                but 16 entities using this criterion. Because the IRS had made a policy to not process
                levies against military retirees and employees, we also eliminated the Defense
                Finance and Accounting Service and Department of Defense entities that were solely
                making salary and/or retirement payments. The remaining 6 entities reported
                payments to 163 taxpayers on a Calendar Year 2006 Miscellaneous Income (Form
                1099-MISC). These were contractor payments and 100 percent of them were eligible
                for levy. However, we could not determine the exact taxpayer balances due at the
                time of the Federal Government payments.



2
    We did not independently assess the reliability of the Integrated Data Retrieval System.
                                                                                               Page 12
                          The Federal Payment Levy Program Needs to Reduce
                                Taxpayer Burden and Maximize Revenue



            For FY 2006 taxpayers identified as being levied against through the FPLP, we
            accessed the taxpayers’ Master File accounts to determine whether they received a
            notice of the IRS’ intent to levy. To validate the data, we selected 25 records and
            traced the data for each to the Integrated Data Retrieval System to ensure the
            accuracy of the data contained in the extracts. We accessed the Integrated Data
            Retrieval System to determine whether the accounts contained a specific FPLP levy
            notice code. We electronically analyzed the taxpayers’ accounts to determine
            whether 1) the IRS received a return receipt card indicating that the taxpayer received
            the notice of levy, 2) the file showed that the notice was undeliverable, or 3) the
            account was not documented.
III.    Determined what actions the Wage and Investment Division Compliance function took to
        protect the increasing number of taxpayers who might face hardships due to issuance of
        automated levies through the FPLP.
        A. Reviewed the prospectus for the Automated Levy Issuance Research Project and the
           final report to determine what actions would be taken to make changes to the FPLP.
        B. Researched the FY 2006 inventory of the Taxpayer Advocate Management
           Information System database to identify cases assigned to each of the five FPLP
           categories. We identified 4,133 cases categorized as FPLP cases. We reviewed
           25 cases to validate that the cases were worked in FY 2006 and that each case was
           assigned one of the FPLP primary issue codes.
        C. Randomly selected a statistical sample of 723 cases from the 4,133 FPLP cases.
        D. Analyzed the 57 FPLP hardship cases to determine whether the levies were released
           after the cases had been reviewed by employees in the Taxpayer Advocate Service.




3
 The sample of 72 cases was reduced to 57 cases because 15 (21 percent) were misclassified as FPLP hardship
cases in the Taxpayer Advocate Management Information System database.
                                                                                                       Page 13
                     The Federal Payment Levy Program Needs to Reduce
                           Taxpayer Burden and Maximize Revenue



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Marybeth H. Schumann, Director
James D. O’Hara, Audit Manager
Deborah L. Drain, Acting Audit Manager
Steven D. Stephens, Acting Audit Manager
Gwendolyn M. Green, Lead Auditor
Sharon Summers, Senior Auditor
Andrea R. McDuffie, Auditor




                                                                                    Page 14
                    The Federal Payment Levy Program Needs to Reduce
                          Taxpayer Burden and Maximize Revenue



                                                                           Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
National Taxpayer Advocate TA
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:R:PI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 15
                          The Federal Payment Levy Program Needs to Reduce
                                Taxpayer Burden and Maximize Revenue



                                                                                                Appendix IV

                                      Glossary of Terms

Automated Levy Issuance Research Project – A cross-functional task force whose goal is to
develop a systemic filter designed to distinguish between hardship and non-hardship cases with a
high degree of accuracy. The task force includes representatives from the IRS Research
function, Wage and Investment Division Compliance function, and Taxpayer Advocate Service.
Continuous Tax Levy – The continuous tax levy process was initiated by the FMS in July 2000.
Under a continuous tax levy, delinquent Federal income tax debts are collected by levying
against non-tax payments until the debt is satisfied, as authorized by the Taxpayer Relief Act of
1997.1
Defense Finance and Accounting Service – The primary finance and accounting operation that
services military departments and defense agencies. The Defense Finance and Accounting
Service has overall payment responsibility for goods and services purchased by the Department
of Defense.
Federal Contractor Tax Compliance Task Force – A multi-agency task force developed to
identify and implement short and long-term operational changes to improve the Federal tax
compliance of Federal contractors. The Federal Contractor Tax Compliance Task Force was
recommended by the Permanent Subcommittee on Investigations in response to the GAO’s 2004
report related to defense contractors and the FPLP.
Federal Disbursement Entities (Disbursing Offices) – These are offices that disburse Federal
payments such as salary, retirement, bonuses, awards, and contract payments.
Federal Payment Levy Program – A program created by the IRS in coordination with the
FMS. This automated system matches IRS records against those of the FMS to locate Federal
payment recipients who have delinquent income tax debts.
Financial Management Service – A Department of the Treasury bureau charged with
implementing the Government’s delinquent debt collection program. Through the debt
collection program, the FMS provides an extremely valuable Government-wide service, assisting
with the collection of delinquent Federal debt.
Functional Requirements Document – A document that identifies and defines the functional,
data, and technical requirements for the FPLP.


1
 Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                                                                          Page 16
                       The Federal Payment Levy Program Needs to Reduce
                             Taxpayer Burden and Maximize Revenue



Information Returns Master File – The portion of the IRS Master File where Individual
Master File and Business Master File taxpayer information documents are compiled. The
documents contain data often used for filing, verifying, and validating income and expenses.
Integrated Data Retrieval System – An IRS computer system with the capability to
instantaneously retrieve or update stored information. It consists of databases and operating
programs that support IRS employees working active tax cases within each business function
across the entire IRS. The System manages data that were extracted from various other IRS
systems allowing IRS employees to access information and take specific actions on taxpayer
accounts, track status, and post transaction updates back to the Master Files.
Interagency Agreement – A written agreement entered in between two Federal agencies which
specify the goods, services, or tasks to be accomplished.
Levy – A levy generically refers to seizure of property to collect a debt. For tax debts, it is the
legal process by which the IRS orders a third party to turn over property in its possession
(e.g., the Federal Government payment) that belongs to the tax debtor.
Levy Fee – The fee the IRS pays the FMS to recover FMS administrative expenses for operating
the FPLP. The fee is paid on a pro rata, per levy basis and determined annually based on the
projected volume of levies.
Levy Payment – The proceeds of a levy taken by the FMS against Federal payments and
remitted to the IRS under the FPLP.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
National Taxpayer Advocate – An independent advisor within the IRS who helps taxpayers
resolve problems with the IRS and recommends changes to the IRS to prevent the same or
similar problems in the future.
Non-Department of the Treasury Disbursing Offices – Disbursing offices are agencies outside
the Department of the Treasury whose Federal payments (e.g., contract, salary, retirement, etc.)
are not disbursed through the Department of the Treasury FMS systems.
Notice – A computer-generated message resulting from an analysis of the taxpayer’s account on
the Master File.
Program Administrators – IRS personnel responsible for administering and implementing the
FPLP.
Specified Payments – Any Federal Government payment other than one for which eligibility is
based on the income and/or assets of a payee. These Federal Government payments include
Federal salary, retirement, Social Security, and contractor payments. The IRS does not levy
against unemployment benefits, workers’ compensation, or certain public assistance payments.

                                                                                             Page 17
                      The Federal Payment Levy Program Needs to Reduce
                            Taxpayer Burden and Maximize Revenue



Taxpayer Advocate Management Information System – An Oracle web-based inventory
control and report system used to control and track Taxpayer Advocate Service cases and
provides management information.
Taxpayer Advocate Service – An IRS function headed by the National Taxpayer Advocate
designed to promptly respond to sensitive or complex taxpayer issues, complaints, or inquiries.
The Taxpayer Advocate Service provides assistance to taxpayers who have problems that the
IRS has not resolved through normal channels.
Treasury Offset Program – The name given internally by the FMS to the centralized offset
process that intercepts Federal payments of payees who owe delinquent debts to Federal
agencies.




                                                                                         Page 18
       The Federal Payment Levy Program Needs to Reduce
             Taxpayer Burden and Maximize Revenue



                                                 Appendix V

Management’s Response to the Draft Report




                                                          Page 19
The Federal Payment Levy Program Needs to Reduce
      Taxpayer Burden and Maximize Revenue




                                                   Page 20
The Federal Payment Levy Program Needs to Reduce
      Taxpayer Burden and Maximize Revenue




                                                   Page 21
The Federal Payment Levy Program Needs to Reduce
      Taxpayer Burden and Maximize Revenue




                                                   Page 22
The Federal Payment Levy Program Needs to Reduce
      Taxpayer Burden and Maximize Revenue




                                                   Page 23
The Federal Payment Levy Program Needs to Reduce
      Taxpayer Burden and Maximize Revenue




                                                   Page 24
